      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




December 8, 2010

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services


FROM:         /George M. Reeb/
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of Washington State’s Medicaid Claims for Nonqualified Aliens
              (A-09-09-00039)


Attached, for your information, is an advance copy of our final report on Washington State’s
Medicaid claims for nonqualified aliens. We will issue this report to the Washington State
Department of Social and Health Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at
(415) 437-8360 or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number
A-09-09-00039.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103




December 15, 2010

Report Number: A-09-09-00039

Mr. Doug Porter
Medicaid Director, Administrator
Health Care Authority
676 Woodland Square Loop
P.O. Box 42700
Olympia, WA 98504-2700

Dear Mr. Porter:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Washington State’s Medicaid Claims for
Nonqualified Aliens. We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(415) 437-8360, or contact Janet Tursich, Audit Manager, at (206) 615-2063 or through email at
Janet.Tursich@oig.hhs.gov. Please refer to report number A-09-09-00039 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Doug Porter


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




        REVIEW OF
    WASHINGTON STATE’S
    MEDICAID CLAIMS FOR
    NONQUALIFIED ALIENS




                      Daniel R. Levinson
                       Inspector General

                        December 2010
                        A-09-09-00039
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Section 1903(v) of the Social Security Act (the Act) and Federal regulations (42 CFR § 440.255)
state that Federal Medicaid funding is available to States for medical services provided to
nonqualified aliens only when those services are necessary to treat an emergency medical
condition. A nonqualified alien is an individual who is not a citizen or national of the United
States and is not in a satisfactory immigration status.

The Act and Federal regulations define an emergency medical condition as a medical condition
with acute symptoms of sufficient severity that the absence of immediate medical attention could
reasonably be expected to result in placing the patient’s health in serious jeopardy, serious
impairment to bodily functions, or serious dysfunction of any bodily organ or part. Further,
Federal regulations specify that there must be “sudden onset” of the condition. The Centers for
Medicare & Medicaid Services (CMS) allows States to identify which conditions qualify as
emergency medical conditions.

In Washington State, the Department of Social and Health Services (the State agency)
administers the Medicaid program. The State agency reimburses providers for emergency
medical services provided to nonqualified aliens under the Alien Emergency Medical (AEM)
program. The Washington Administrative Code, section 388-500-0005, uses the definition of an
emergency medical condition contained in Federal regulations. The State agency’s policies and
procedures for the AEM program are contained in its Eligibility A–Z Manual (the Manual). The
Manual contains a list of medical conditions defined as emergency medical conditions.

To qualify for the AEM program, an individual must meet all eligibility requirements for the
Medicaid program except for citizenship and have a condition that is listed in the Manual or have
prior approval from a State medical consultant for medical conditions that are not listed in the
Manual. Once the State agency has deemed an individual eligible for the AEM program, he or
she is certified for a minimum of 3 months and receives a medical assistance identification card
(Medicaid card), which states that the individual is authorized to receive emergency and related
services. During calendar years (CY) 2006 and 2007, pursuant to the Washington
Administrative Code, nursing home services required prior approval from a State medical
consultant, who was responsible for determining whether the services were needed to treat an
emergency medical condition.

During our audit period (July 1 through December 31, 2006), the State agency claimed
approximately $52.9 million for services provided to nonqualified aliens. We expanded our
review to include $6.7 million of nursing home claims for CYs 2006 and 2007 (of which
$1.3 million was in our audit period).

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal reimbursement for
services provided to nonqualified aliens in accordance with Federal and State requirements.



                                                i
SUMMARY OF FINDINGS

The State agency did not always claim Federal reimbursement for services provided to
nonqualified aliens in accordance with Federal and State requirements:

   •   Contrary to the Washington Administrative Code, the State agency claimed $1,519,801
       ($759,901 Federal share) for nursing home services provided without prior approval from
       a State medical consultant. In addition, the State agency informed us that some
       beneficiaries were misclassified and not eligible for the AEM program.

   •   Contrary to the Manual, the State agency claimed $6,353 ($3,177 Federal share) for
       various medical services provided to treat conditions that were not on the Manual’s list of
       qualifying emergency medical conditions and not otherwise authorized. This deficiency
       occurred because the Medicaid cards issued to nonqualified aliens allowed them to
       receive services for conditions that were not defined as emergency medical conditions.
       In addition, the State agency’s Medicaid Management Information System (MMIS) did
       not have edits limiting claims for services provided to nonqualified aliens to treatment of
       conditions that the State agency defined as emergency medical conditions or to services
       that had been approved by a State medical consultant.

   •   The State agency claimed $1,488,979 ($744,490 Federal share) for prescription drugs and
       $369,454 ($184,727 Federal share) for dental services that the State agency could not
       determine were related to treating emergency medical conditions. This deficiency
       occurred because the Medicaid card was not effective in limiting services to treatment of
       only conditions defined as emergency medical conditions. In addition, the claims did not
       include diagnostic codes identifying the conditions for which drugs and dental services
       had been ordered. Therefore, the State agency could not determine whether it properly
       claimed $1,858,433 ($929,217 Federal share).

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $763,078 to the Federal Government for nursing home services ($759,901 Federal
       share) and various medical services ($3,177 Federal share) that were improperly claimed,

   •   work with CMS to determine what portion of the $1,858,433 ($929,217 Federal share)
       claimed for prescription drugs and dental services was related to emergency medical
       conditions and refund any improperly claimed amounts,

   •   ensure that only nursing home claims that receive prior approval from a State medical
       consultant and that are eligible for the AEM program are claimed for reimbursement,

   •   ensure that the Medicaid cards issued to nonqualified aliens limit services to those
       necessary to treat conditions defined as emergency medical conditions, and



                                                ii
   •   ensure that the MMIS edits limit claims for services provided to nonqualified aliens to
       treatment of conditions that the State agency has defined as emergency medical
       conditions or to services approved by a State medical consultant.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, the State agency concurred with our recommendations and
stated that it had already refunded $759,901 to the Federal Government for nursing home
services that were improperly claimed in CYs 2006 and 2007. Because the State agency
provided its comments in multiple emails, we have not attached the comments to this report.

Our review of the State agency’s accounting records confirmed that the State agency refunded to
the Federal Government $759,901 for improperly claimed nursing home services.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                          Page

INTRODUCTION.............................................................................................................1

          BACKGROUND .................................................................................................... 1
              Medicaid Program ....................................................................................... 1
              Emergency Medical Services for Nonqualified Aliens .............................. 1
              Washington State’s Alien Emergency Medical Program ........................... 2
              Medicaid Management Information System ............................................... 3

          OBJECTIVE, SCOPE, AND METHODOLOGY .................................................. 3
               Objective ..................................................................................................... 3
               Scope ........................................................................................................... 3
               Methodology ............................................................................................... 3

FINDINGS AND RECOMMENDATIONS ................................................................... 4

          FEDERAL AND STATE REQUIREMENTS........................................................ 5

          IMPROPERLY CLAIMED SERVICES FOR NONQUALIFIED ALIENS ......... 6
               Nursing Home Services Claimed Without Prior Approval......................... 6
               Medical Services Claimed for Treatment of Conditions Not Defined
                 as Emergency Medical Conditions .......................................................... 6
               Prescription Drugs and Dental Services Claimed That May Not
                 Have Been for Treatment of Emergency Medical Conditions................. 7

          RECOMMENDATIONS ........................................................................................ 8

          STATE AGENCY COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE .......................................... 8

APPENDIXES

          A: LIST OF EMERGENCY MEDICAL CONDITIONS IN
              WASHINGTON STATE’S 2006 ELIGIBILITY A–Z MANUAL

          B: TOTAL CLAIMS FOR SERVICES PROVIDED TO NONQUALIFIED
              ALIENS




                                                                    iv
                                                INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and low-income individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Emergency Medical Services for Nonqualified Aliens

Pursuant to section 401(b)(1)(A) of the Personal Responsibility and Work Opportunity
Reconciliation Act (PRWORA) of 1996 (P.L. No. 104-93), an alien who is not a qualified alien 1
is not eligible for any Federal public benefit except for medical assistance under Title XIX of the
Act for “care and services necessary for the treatment of an emergency medical condition (as
defined in section 1903(v) of such Act) of the alien involved and [that] are not related to an
organ transplant procedure.”

Section 1903(v) of the Act and Federal regulations (42 CFR § 440.255) state that Federal
Medicaid funding is available to States for medical services provided to nonqualified aliens only
when those services are necessary to treat an emergency medical condition. For the purposes of
this report, a nonqualified alien is an individual who is not a citizen or national of the United
States and is not in a satisfactory immigration status. 2 This category includes aliens who are not
qualified under section 401 of the PRWORA and qualified aliens subject to the 5-year bar 3
specified in section 403 of the PRWORA.

The Act and Federal regulations define an emergency medical condition as a medical condition
with acute symptoms of sufficient severity that the absence of immediate medical attention could
reasonably be expected to result in placing the patient’s health in serious jeopardy, serious
impairment to bodily functions, or serious dysfunction of any bodily organ or part. Further,
Federal regulations specify that there must be “sudden onset” of the condition. CMS allows
States to identify which conditions qualify as emergency medical conditions.

1
  A qualified alien is defined in section 431(b) of the PRWORA as (1) an alien lawfully admitted for permanent
residence, (2) an alien granted asylum, (3) a refugee admitted to the United States, (4) an alien paroled into the
United States for a period of at least 1 year, (5) an alien whose deportation is being withheld, or (6) an alien granted
conditional entry.
2
  Section 1137(d)(1)(B)(iii) of the Act states that “the term ‘satisfactory immigration status’ means an immigration
status which does not make the individual ineligible for benefits under the applicable program.”
3
 The 5-year bar applies to legal aliens who entered the United States on or after August 22, 1996, and who are not
eligible for Medicaid for a period of 5 years from the date they entered the country as legal aliens.


                                                           1
Washington State’s Alien Emergency Medical Program

In Washington State, the Department of Social and Health Services (the State agency)
administers the Medicaid program. The State agency reimburses providers for emergency
medical services provided to nonqualified aliens under the Alien Emergency Medical (AEM)
program. The State agency claims Federal reimbursement for AEM expenditures on Form
CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program.

The Washington State plan limits coverage of nonqualified aliens to care and services necessary
for treatment of an emergency medical condition. The Washington Administrative Code,
section 388-500-0005, uses the definition of an emergency medical condition contained in
Federal regulations.

The State agency’s policies further define an emergency medical condition as one in which a
patient’s condition will become an emergency medical condition within days to weeks if the
patient is not treated. The State agency’s policies and procedures for the AEM program are
contained in its Eligibility A–Z Manual (the Manual). The Manual contains a list of medical
conditions defined as emergency medical conditions (Appendix A).

To qualify for the AEM program, an individual must meet all eligibility requirements for the
Medicaid program except for citizenship and have a condition that is listed in the Manual or have
prior approval from a State medical consultant for medical conditions that are not listed in the
Manual. Once the State agency has deemed an individual eligible, he or she is certified for a
minimum of 3 months and receives a medical assistance identification card (Medicaid card),
which states that the individual is authorized to receive emergency and related services. 4 The
Medicaid card for the AEM program looks identical to the regular Medicaid card except for the
words “Emergency and Related Services. PA [Prior Approval] May Be Required.”

The State agency grants certification periods longer than 3 months for certain medical
conditions. For example, the following conditions all have a 12-month certification period:
amputation of limb—traumatic; cancer requiring surgery, radiation, or chemotherapy;
HIV-positive with complications or opportunistic infections; renal failure, either acute or
requiring dialysis; insulin-dependent diabetes mellitus; post-organ-transplant care; and
tuberculosis.

During calendar years (CY) 2006 and 2007, pursuant to the Washington Administrative Code,
nursing home services required prior approval from a State medical consultant, who was
responsible for determining whether the services were needed to treat an emergency medical
condition.




4
 Pregnant women who qualify for the AEM program receive a Medicaid card that states “CNP” (Categorically
Needy Person). Pregnant women are eligible for labor and delivery services in addition to emergency and related
services. Prenatal care services are not covered.


                                                        2
Medicaid Management Information System

The State agency’s Medicaid Management Information System (MMIS) processes AEM claims.
A contractor, Affiliated Computer Services, operates the MMIS. The MMIS processes claims
based on eligibility information in the State agency’s Automated Client Eligibility System. For
the AEM program, the MMIS classifies nonqualified aliens as either undocumented aliens or
legal aliens under the 5-year bar.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal reimbursement for
services provided to nonqualified aliens in accordance with Federal and State requirements.

Scope

Our audit covered the 6-month period ended December 31, 2006. During this period, the State
agency processed 151,482 claims totaling $52,874,921 ($26,437,461 Federal share) for services
provided to nonqualified aliens. (Appendix B provides a summary of these claims.) We
expanded our review to include $6,652,896 ($3,326,448 Federal share) 5 of nursing home claims
for CYs 2006 and 2007.

We relied on the MMIS database that the State agency provided to us to identify the State
agency’s claims under the AEM program. We did not contact medical service providers or
review client medical records as part of this audit. We did not review the eligibility of
nonqualified aliens for Medicaid. We did not reconcile the $6,652,896 of nursing home claims
for CYs 2006 and 2007 (except for the $1,273,996 in our 6-month audit period) because the
dollar amount could not be separated from the total on the Form CMS-64.

For the 6-month audit period, we judgmentally selected 50 claims totaling $138,186
($69,093 Federal share) to determine whether the State agency claimed services provided to
nonqualified aliens for conditions that the State agency did not define or approve as emergency
medical conditions.

For the 6-month audit period, we reviewed prescription drug claims totaling $1,504,967
($752,484 Federal share) and dental service claims totaling $369,454 ($184,727 Federal share).

We conducted our fieldwork at the State agency in Olympia, Washington.

Methodology

To accomplish our objective, we:

      •    reviewed applicable Federal and State laws and regulations;
5
    This amount included $1,273,996 ($636,998 Federal share) of nursing home claims in our 6-month audit period.


                                                          3
    •    reviewed the State agency’s policies and procedures and AEM program instructions
         related to the payment of AEM claims for services provided to nonqualified aliens
         (contained in the Manual);

    •    obtained an understanding of the State agency’s MMIS for processing AEM claims;

    •    reviewed the State agency’s internal controls for ensuring that only emergency services
         provided to nonqualified aliens were claimed on the Form CMS-64;

    •    reconciled $52,874,921 of AEM claims to the amount reported on the Form CMS-64;

    •    judgmentally selected 50 claims from the MMIS database totaling $138,186 for services
         provided to nonqualified aliens (based on our evaluation of higher risk areas), consisting
         of 10 claims for labor and delivery services, 10 claims for dialysis services, 7 claims for
         cancer treatments, 6 claims for nursing home services, 1 claim for a dental service, and
         16 claims for services to treat other medical conditions; 6

    •    reviewed the MMIS database to identify all claims for prescription drugs and dental
         services that did not contain diagnosis codes; and

    •    interviewed CMS and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

The State agency did not always claim Federal reimbursement for services provided to
nonqualified aliens in accordance with Federal and State requirements:

    •    Contrary to the Washington Administrative Code, the State agency claimed $1,519,801
         ($759,901 Federal share) for nursing home services provided without prior approval from
         a State medical consultant. In addition, the State agency informed us that some
         beneficiaries were misclassified and not eligible for the AEM program.

    •    Contrary to the Manual, the State agency claimed $6,353 ($3,177 Federal share) for
         various medical services provided to treat conditions that were not on the Manual’s list of
         qualifying emergency medical conditions and not otherwise authorized. This deficiency
         occurred because the Medicaid cards issued to nonqualified aliens allowed them to
         receive services for conditions that were not defined as emergency medical conditions.

6
 We considered higher risk areas to be services for conditions that did not appear to meet the definition of an
emergency medical condition, such as contraception, eye care, and medical equipment.


                                                          4
       In addition, the State agency’s MMIS did not have edits limiting claims for services
       provided to nonqualified aliens to treatment of conditions that the State agency defined as
       emergency medical conditions or to services that had been approved by a State medical
       consultant.

   •   The State agency claimed $1,488,979 ($744,490 Federal share) for prescription drugs and
       $369,454 ($184,727 Federal share) for dental services that the State agency could not
       determine were related to treating emergency medical conditions. This deficiency
       occurred because the Medicaid card was not effective in limiting services to treatment of
       only conditions defined as emergency medical conditions. In addition, the claims did not
       include diagnostic codes identifying the conditions for which drugs and dental services
       had been ordered. Therefore, the State agency could not determine whether it properly
       claimed $1,858,433 ($929,217 Federal share).

FEDERAL AND STATE REQUIREMENTS

Pursuant to section 1903(v)(1) of the Act:

       … no payment may be made to a State under this section for medical assistance
       furnished to an alien who is not lawfully admitted for permanent residence or
       otherwise permanently residing in the United States under color of law. …
       Payment shall be made under this section for care and services that are furnished
       to an alien … only if—(A) such care and services are necessary for the treatment
       of an emergency medical condition of the alien, (B) such alien otherwise meets
       the eligibility requirements for medical assistance under the State plan approved
       under this title … and (C) such care and services are not related to an organ
       transplant procedure.

Pursuant to section 1903(v)(3) of the Act:

       … the term “emergency medical condition” means a medical condition (including
       emergency labor and delivery) manifesting itself by acute symptoms of sufficient
       severity (including severe pain) such that the absence of immediate medical
       attention could reasonably be expected to result in—(A) placing the patient’s
       health in serious jeopardy, (B) serious impairment to bodily functions, or
       (C) serious dysfunction of any bodily organ or part.

Federal regulations (42 CFR § 440.255) use the same definition of an emergency medical
condition as the Act, with one additional requirement: There must be “sudden onset” of the
condition.

The Washington State plan, Attachment 2.6-A, page 2, section 3(c), states that each individual
covered under the plan is residing in the United States and “[i]s either an alien who is not a
qualified alien, as defined in P.L. [No.] 104-193, as amended, or who is a qualified alien Subject
to the five-year bar in section 403 of that Act, who entered the United States August 22, 1996 or




                                                5
later. (Coverage of such otherwise eligible aliens is limited to care and services necessary to
treat an emergency medical condition of the alien.)”

The Washington Administrative Code, section 388-438-0110(7)(f), states that nursing facility
services provided to nonqualified aliens are not covered unless they are approved by the State
agency’s medical consultant.

IMPROPERLY CLAIMED SERVICES FOR NONQUALIFIED ALIENS

Nursing Home Services Claimed Without Prior Approval

The State agency improperly claimed $1,519,801 ($759,901 Federal share) for nursing home
services. Contrary to the Washington Administrative Code, some services were provided
without prior approval from a State medical consultant. In addition, the State agency informed
us that some beneficiaries were misclassified and not eligible for the AEM program.

Our judgmental selection of 50 claims included 6 claims for nursing home services. For one of
these claims, representing $5,851 ($2,926 Federal share), the services did not receive prior
approval from a State medical consultant as required. State agency officials told us that they
believed they were no longer claiming nursing home costs under the AEM program.

We informed the State agency that there were 575 claims for nursing home services, totaling
$1,273,996, in our 6-month audit period. Based on the results of our judgmental sample, we
asked the State agency to review all nursing home claims under the AEM program for CYs 2006
and 2007. The State agency determined that $2,888,179 of the $6,652,896 7 claimed for nursing
home services in this period was unallowable according to section 388-438-0110(7)(f) of the
Washington Administrative Code and some beneficiaries were misclassified and not eligible for
the AEM program. In addition, the State agency found that it had already removed $1,368,378
from the AEM program in July 2007 for nursing home services. The State agency informed us
that it needed to remove $1,519,801 of additional unallowable nursing home costs and refund
$759,901 to the Federal Government.

Medical Services Claimed for Treatment of Conditions Not Defined as Emergency Medical
Conditions

The State agency improperly claimed $6,353 ($3,177 Federal share) for various medical services
not allowed by its policies for the AEM program. Our judgmental selection of 50 claims
included 43 claims for medical services. Of these claims, 17 claims totaling $6,353 ($3,177
Federal share) were for services to treat conditions that the State agency did not define as
emergency medical conditions or that a State medical consultant did not approve:

       •   5 claims for services related to contraception;

       •   5 claims for eye care, including fitting of contact lenses and glasses;

7
    The $6.7 million includes the $1.3 million from our 6-month audit period.


                                                           6
    •   3 claims for medical equipment (i.e., a blood pressure monitor, hearing aid, and sleep
        apnea device);

    •   2 claims for office visits not related to treatment of emergency medical conditions;

    •   1 claim for sterilization; and

    •   1 claim for a legal abortion.

The remaining 26 services were to treat conditions that the State agency defined as emergency
medical conditions.

This deficiency occurred because the beneficiary Medicaid card was not effective in limiting
services to treatment of only conditions defined as emergency medical conditions. The
beneficiary presented the Medicaid card to the provider and received service in spite of the
information printed on the card: “Emergency and Related Services. PA May Be Required.” In
addition, the MMIS did not have edits to limit payments only to services for conditions defined
as emergency medical conditions or that had been approved by a State medical consultant.

Prescription Drugs and Dental Services Claimed That May Not Have Been for Treatment
of Emergency Medical Conditions

The State agency claimed $1,488,979 ($744,490 Federal share) for prescription drugs and
$369,454 ($184,727 Federal share) for dental services that the State agency could not determine
were related to treating emergency medical conditions. This deficiency occurred because the
Medicaid card was not effective in limiting services to treatment of only conditions defined as
emergency medical conditions. In addition, the claims did not include diagnostic codes
identifying the conditions for which drugs and services had been ordered. Therefore, the State
agency could not determine whether it properly claimed $1,858,433 ($929,217 Federal share).

Prescription Drug Claims

When we attempted to sample prescription drug claims from the MMIS database, we determined
that 99 percent of prescription drug claims did not include diagnostic codes. These codes
identify the physician’s diagnosis of the condition associated with the service or drug. Without a
diagnostic code on the claim, the State agency could not determine from the claim data whether
the drug was prescribed to treat a medical condition that it had defined or approved as an
emergency medical condition.

When we asked the State agency about the missing diagnostic codes for drug claims, State
agency officials said that they had conducted a risk assessment of the AEM program for the
period October 2004 through June 2005. 8 This assessment, on page 6, noted: “The MMIS
system does not normally include diagnosis codes with a pharmacy claim. It is therefore,
difficult to determine if any of these claims represent prescriptions to treat an emergent medical
8
 Alien Emergency Medical Risk Assessment Project, prepared by the State agency’s Health and Recovery Services
Administration, Division of Business and Finance, Office of Finance, dated September 28, 2005.


                                                      7
condition.” As part of this assessment, the State agency reviewed 25,050 drug claims and found
that only 7 percent of these claims could be associated with a condition that was “almost always
emergent.” For the remaining 93 percent, the State agency could not associate a diagnosis with
an emergency medical condition. Examples of prescription drugs that the State agency could not
determine were related to treating emergency medical conditions were drugs used to treat
Alzheimer’s disease, depression, and glaucoma.

Dental Service Claims

Our judgmental selection of 50 claims included one dental service claim for dentures. Because
the Medicaid card was not effective in limiting services to treatment of only conditions that the
State agency defined as emergency medical conditions and this claim did not include a
diagnostic code, the State agency could not determine whether the service was to treat an
emergency medical condition. When we reviewed the MMIS database to identify dental claims,
we determined that none of them contained diagnostic codes; however, the claims did include
procedure codes. Procedure codes did not identify whether the services were to treat emergency
medical conditions but did identify procedures such as restorations (fillings), oral evaluations
and examinations (periodic and comprehensive), and preventive services (cleanings and fluoride
treatments).

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $763,078 to the Federal Government for nursing home services ($759,901 Federal
       share) and various medical services ($3,177 Federal share) that were improperly claimed,

   •   work with CMS to determine what portion of the $1,858,433 ($929,217 Federal share)
       claimed for prescription drugs and dental services was related to emergency medical
       conditions and refund any improperly claimed amounts,

   •   ensure that only nursing home claims that receive prior approval from a State medical
       consultant and that are eligible for the AEM program are claimed for reimbursement,

   •   ensure that the Medicaid cards issued to nonqualified aliens limit services to those
       necessary to treat conditions defined as emergency medical conditions, and

   •   ensure that the MMIS edits limit claims for services provided to nonqualified aliens to
       treatment of conditions that the State agency has defined as emergency medical
       conditions or to services approved by a State medical consultant.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, the State agency concurred with our recommendations and
stated that it had already refunded $759,901 to the Federal Government for nursing home


                                                8
services that were improperly claimed in CYs 2006 and 2007. Because the State agency
provided its comments in multiple emails, we have not attached the comments to this report.

Our review of the State agency’s accounting records confirmed that the State agency refunded to
the Federal Government $759,901 for improperly claimed nursing home services.




                                               9
APPENDIXES
          APPENDIX A: LIST OF EMERGENCY MEDICAL CONDITIONS IN
             WASHINGTON STATE’S 2006 ELIGIBILITY A–Z MANUAL

Amputation of limb—traumatic
Appendicitis—acute
Asphyxia (strangling/drowning)
Asthma attack—acute
Bowel obstruction, infarction, or perforation
Cancer (requiring surgery, radiation, or chemotherapy)
Cardiac arrest/heart attack/acute myocardial infarction
Cerebral vascular accident, stroke
Coma
Concussion
Convulsion/seizure
Deep vein thrombosis
Diabetic keto-acidosis
Dislocation of joints
Ectopic pregnancy
Electrocution
Eye injury
Fracture
Gangrene
HIV-positive with complications or opportunistic infections
Hypothermia
Infection, cellulitis, or abscess
Infectious cholecystitis—acute
Insulin-dependent diabetes mellitus
Laceration of artery, nerve, or tendon
Laceration or cut requiring sutures, staples, or glue
Liver failure—acute
Malignant hypertension
Meningitis—viral, bacterial, or fungal
Pancreatitis—acute
Pneumothorax
Poisoning due to food, drugs, or overdose
Post-organ-transplant care, including immunosuppressant medication
Pyelonephritis—acute
Renal failure—acute or requiring dialysis
Respiratory failure/breathing cessation
Sunstroke/heatstroke
Traumatic brain injury
Traumatic injury
Tuberculosis
Ulcer (peptic or gastric) with bleeding, perforation, and/or obstruction
            APPENDIX B: TOTAL CLAIMS FOR SERVICES PROVIDED TO
                             NONQUALIFIED ALIENS
                         (July 1 Through December 31, 2006)


                                                            Claim
                 Category of Claims                                    No. of Claims
                                                           Amount
 Labor and Delivery                                        $35,996,275        84,380
 Renal Failure                                               2,413,081         2,394
 Cancer Treatments                                           1,770,984         3,064
 Services for Other Medical Conditions                       9,546,164        17,531
 Nursing Home Services                                       1,273,996           575
    Total Medical Conditions                               $51,000,500       107,944
 Prescription Drugs                                          1,504,967        39,304
 Dental Services                                               369,454         4,234
    Total                                                  $52,874,921          151,482


Note: The dollar amounts shown represent both the State and Federal shares. For reporting
purposes, we used a Federal medical assistance percentage (FMAP) of 50 percent for the audit
period. The actual FMAP during the audit period ranged from 50.00 percent to 50.12 percent.
